 Audit of NARA’s Foreign
  and Premium Travel


OIG Audit Report No. 11-14




       July 7, 2011
Table of Contents



Executive Summary...................................................................................... 3


Background ................................................................................................... 4


Objectives, Scope, Methodology.................................................................. 5


Audit Results ................................................................................................. 6


Appendix A – Acronyms and Abbreviations ........................................... 19


Appendix B – Management’s Response to the Report............................ 20


Appendix C – Report Distribution List .................................................... 21

                                                            OIG Audit Report No. 11-14


Executive Summary

The National Archives and Records Administration (NARA) Office of Inspector General
(OIG) completed an audit of premium and foreign travel. The objective of the audit was
to determine whether premium and foreign travel was appropriately authorized and
properly managed in accordance with Federal Travel Regulations (FTR) and agency
policies.

NARA employees travel domestically and internationally to participate in conferences
and work on various records-related issues. The agency’s Finance Branch (NABF) is
responsible for management of NARA’s travel program and providing travel policies and
procedures in accordance with NARA 601, NARA Travel Policy, and the FTR. During
2009 and 2010, the agency spent $3,396,423 and $3,759,183, respectively on travel
expenditures.

Overall, we conclude opportunities exist to strengthen the effectiveness and control over
the management of travel expenses related to premium and foreign travel. We identified:

   •	 Management controls over travel did not function as intended resulting in: (1)
      inadequate review of travel activity, (2) ineffective oversight of premium class
      and foreign travel, and (3) inadequate reporting of foreign travel.

   •	 Management of non-Federal sponsored travel needs enhancement. In particular,
      (1) requesting reimbursement from non-Federal sources was not centralized, (2)
      there was no verification payment was received from non-Federal sources, and (3)
      conflict-of-interest determinations were not always obtained from the Office of
      General Counsel (NGC).

   •	 NARA’s monitoring of travel card expenditures was not robust as it lacked
      internal controls to minimize the risk of travel card misuse. Specifically, we
      found unauthorized ATM withdrawals and purchases on travel charge cards.

As a result of these conditions, NARA cannot ensure premium and foreign travel is
appropriately authorized and properly managed in accordance with FTR and agency
policies. Management was receptive to the findings identified and agreed opportunities
for improvement were warranted.

We made six recommendations which we believe, once implemented, will address
weaknesses cited in this review.




                                        Page 3
                     National Archives and Records Administration
                                                             OIG Audit Report No. 11-14


Background

The Federal Travel Regulation (FTR) at 41 C.F.R. 300 to 304, issued by General
Services Administration, implements statutory requirements and Executive Branch
policies for travel by Federal civilian employees and others authorized to travel at
Government expense. The purposes of the FTR are to interpret statutory and other policy
requirements in a manner that balances the need to assure that official travel is conducted
in a responsible manner with the need to minimize administrative costs, and to
communicate the resulting policies in a clear manner to Federal agencies and employees.

NARA 601, NARA Travel Policy, outlines NARA’s policy for official Government travel
for Temporary Duty Station (TDY), local travel, and non-travel expenses. The policy is
used in conjunction with the FTR.

The Office of Management and Budget (OMB) Circular A-123, Appendix B (revised
January 2009), Improving the Management of Government Charge Card Programs (the
Circular), establishes standard minimum requirements and suggested best practices for
government charge card programs that may be supplemented by individual agency policy and
procedures.

The Office of Administration – Finance Branch (NABF) is responsible for the
management of NARA’s travel program, including (1) providing travel policies and
procedures in accordance with NARA 601, NARA Travel Policy, and the FTR, (2)
reviewing travel authorizations and vouchers of Washington, D.C. and vicinity
employees to ensure the amounts authorized and expended are appropriate and in
accordance with NARA policies and the FTR, and (3) administering the Government
Travel Card Program.

NARA’s approving officials have the responsibility to authorize travel prior to employees
commencing their trips. The approving officials (1) verify funds are available in the
office’s budget to cover the requested travel, (2) review travel authorizations to ensure
authorized amounts are appropriate and in accordance with the FTR, and (3) upon the
completion of travel, reviews the employee’s travel voucher, receipts, and other
supporting documentation to ensure they are correct and proper upon the completion of
the travel.

NARA employees use GovTrip to prepare, examine, route, approve, and record travel
authorizations, advances, and reimbursements. The Citibank MasterCard travel charge
card is used for travel expenditures. The agency spent approximately $3,396,423 on
travel in FY09 and $3,759,183 in FY10.




                                        Page 4
                     National Archives and Records Administration
                                                                         OIG Audit Report No. 11-14


Objectives, Scope, Methodology

The objective of the audit was to determine whether premium and foreign travel was
appropriately authorized and properly managed in accordance with agency and FTR. Our
audit focused on premium class usage and NARA employees that traveled
internationally. The audit was conducted with representatives from the Office of
Administration - NABF 1 and the Office of General Counsel (NGC).

To accomplish this objective, we:
   •	 Examined applicable laws, regulations, and NARA guidance related to the travel
       program and travel card including (a) FTR at 41 C.F.R. 300-304, (b) NARA 601,
       NARA Travel Policy, (c) the Circular, and (d) NARA Interim Guidance 601-11,
       Travel Funded by Non-Federal Sources.
   •	 Held discussions with NABF staff to obtain an understanding of the travel

       program, including the use of the travel card.

   •	 Interviewed NARA travelers and management from different divisions to 

       understand travel authorizations and vouchers.

   •	 Discussed travel funded by non-Federal sources with NGC.
   •	 Obtained access to Citibank transaction data for NARA employees with
       individually billed travel cards and performed a number of analyses to test the
       effectiveness of controls.
   •	 Obtained access to GovTrip to access travel authorizations, vouchers, and 

       supporting documentation.

   •	 Judgmentally selected international airline transactions over $1,000 between
       January 2009 and October 2010. Specifically, we examined 35 transactions
       involving international travel arrangements and premium class usage. We also
       examined four transactions involving domestic travel.
   •	 Reviewed travel related to activities with the International Council of Archives
       (ICA). We also interviewed management to understand NARA’s role with the
       organization.

Our audit work was performed at Archives II in College Park, Maryland between June
2010 and April 2011. We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.


1
  NARA underwent a Transformation effort during the timeframe of this audit. Office names and symbols
have subsequently changed to reflect the reorganization. However, the previous office names and symbols
are used in the body of this report to reflect the historical names of the offices involved in managing the
travel program, as well as to remain consistent with the office names used in applicable NARA policy.
Recommendations are addressed using the most current office and management titles.
                                            Page 5
                         National Archives and Records Administration
                                                             OIG Audit Report No. 11-14


Audit Results

1. Management controls over travel need improvement.
During the audit we identified several instances where approving officials, NABF, and
Administrative Officers did not always ensure amounts claimed on travel vouchers were
accurate, allowable, and actually incurred by the traveler. Specifically, we identified (1)
inadequate review of travel activity, (2) ineffective oversight of premium class and
foreign travel, and (3) inadequate reporting of foreign travel. This occurred because
management oversight activities designed to ensure agency funds were used in an
allowable, effective, and economical manner did not always function as intended. NARA
601, NARA Travel Policy, requires approving officials, NABF, and administrative
officers to ensure amounts authorized and expended are appropriate and in accordance
with NARA policies and the FTR. Without effective monitoring activities, employees
may be reimbursed for charges they did not actually incur or that were unallowable, or
reimbursed for more than they are actually entitled.

Inadequate review of travel activity
During the course of our audit, we reviewed a sample of 39 (35 international and 4
domestic) travel authorizations and vouchers from January 2009 through October 2010 to
determine whether travel was properly authorized, managed, and adhered to NARA 601,
NARA Travel Policy, and the FTR. Specifically, we found:

•	 Six instances (15%) where travelers filed travel vouchers, but did not have
   documentation in GovTrip to support their claimed expenses. Four of the vouchers
   were for international travel to Belgium, Korea, Switzerland, and the United
   Kingdom totaling $7,682. Although domestic travel was not a part of our scope, we
   identified two domestic trips without documentation in GovTrip totaling $3,236.
   There were no explanations provided for the missing documentation. We noted the
   approving officials, NABF, and Administrative Officers examined and approved
   these claims for reimbursement without required receipts or explanations.

   During the course of our audit, two of the travelers were able to provide the
   documentation in response to our request. Based on review of documentation later
   provided by one of the travelers, we found the traveler terminated travel somewhere
   other than their official duty station per their travel voucher. There was no
   documentation or explanation in GovTrip indicating why a different route was
   traveled, therefore it is impossible to determine whether the traveler was responsible
   for any additional costs.

   FTR § 301-11.25 states the employee must provide a lodging receipt and a receipt for
   every authorized expense over $75, or provide a reason acceptable to the agency
   explaining why they were unable to furnish the necessary receipt. NARA 601.60,

                                        Page 6
                     National Archives and Records Administration
                                                                          OIG Audit Report No. 11-14


    NARA Travel Policy, also indicates receipts are required for common carrier

    transportation tickets and all lodging expenses regardless of amount.


    FTR § 301-10.7 requires travelers to travel to their destination by the usually traveled
    route unless the agency authorizes or approves a different route as officially
    necessary. Further, FTR § 301-10.8 states the traveler’s reimbursement will be
    limited to the cost of travel by a direct route or on an uninterrupted basis and that the
    traveler will be responsible for any additional costs. When combining TDY and
    personal travel NARA 601.28, NARA Travel Policy, requires the screen print of flight
    costs when submitting a Travel Cost Comparison worksheet 2.

•	 Two instances where employees incurred airline charges on their government issued
   travel charge cards, but travel authorizations did not exist in GovTrip. The trips were
   to Paris, France and totaled $2,080. Although the airline charges were later refunded,
   a travel authorization was not completed for the original travel arrangements. The
   employees were traveling for another agency that later decided to make the travel
   arrangements. The agency provided a travel authorization to the employees and
   subsequently paid their travel expenses.

    FTR § 301-50.3 states the traveler must use the E-Gov Travel Service when the
    agency makes it available to you. NARA 601.13, NARA Travel Policy, indicates
    GovTrip is to be used to process all NARA travel and non-travel expense requests for
    domestic and international travel.

•	 Sixteen (46%) instances where travel vouchers were not completed within five
   working days.

    FTR § 301-52.7, states travelers must submit their travel claims within five working
    days after they complete their trip or period of travel. NARA 601.60, NARA Travel
    Policy, indicates travelers should keep a record of reimbursable travel expenditures
    and prepare a travel voucher in the GovTrip system within five working days after
    completion of the trip.

Ineffective oversight of premium class and foreign travel
We found the agency lacked effective oversight and monitoring in several instances for
one particular traveler in the agency. Specifically, we found: (1) premium travel
expenditures unauthorized or without adequate justification, (2) travel without sufficient
documentation or explanations to support deviations or unusual circumstances in travel
arrangements, and (3) receipt of per diem allowances when meals were included in
conference registrations fees.


2
  The Cost Comparison Worksheet is used by a traveler to compare the actual travel costs that the employee
incurred by taking a different mode of transportation other than the authorized mode to the authorized
official travel costs. It also used for comparing personal travel combined with official travel. The traveler
is required to submit the Worksheet with the screen print of flight costs and any other required receipts
documenting the official travel costs.
                                             Page 7
                          National Archives and Records Administration
                                                             OIG Audit Report No. 11-14



   According to NARA 601.37, travelers are required to submit required documentation
   when medical conditions require certain travel arrangements. NABF policy is to rely
   on the doctor’s note and not request specific details regarding the illnesses due to
   what the officials consider privacy of the traveler.

•	 On trip #2 the traveler was authorized to travel to Paris, France for an ICA Advisory
   Board meeting then to Tamanrasset, Algeria for an ICA Executive Board meeting.
   On the return trip, the traveler flew premium class from Tamanrasset to Paris.
   According to NABF, the traveler was unaware they were booked in premium class
   and once they realized the error, the travel agency was contacted. The travel agency
   indicated the coach and business class cost the same and any changes would cost
   more. We note there was no supporting documentation or explanations in GovTrip to
   support these statements.

   Also, there appears to be a lag of three days from when the meeting ended in Paris
   and when the meeting started in Tamanrasset. The traveler indicated instead of
   returning home and traveling back to Algeria, the stay was extended in Paris. In
   GovTrip the traveler provided a Cost Comparison Worksheet to compare official
   travel to actual travel costs, but there was no documentation or explanations to
   support the official travel cost or these statements.

•	 On trip #3 the traveler went to St Julian’s, Malta for an ICA Conference. The traveler
   flew business class for the travel segments between London and Malta ($1,517 for
   these two segments), but we found no authorization for the traveler to fly in premium
   class. Based on review of the booking classes offered by Air Malta, economy class is
   an option for travelers.

•	 On trip #4 the traveler went to Paris, France for an ICA Management Commission
   meeting. The traveler returned to their residence from Rome, Italy (airline ticket
   totaled $883) instead of France. There were no explanations in GovTrip for why the
   traveler traveled this route. Also, the traveler departed on a Friday from their
   residence, but there were no details indicating the dates the meeting occurred in Paris,
   France. In GovTrip the traveler provided a Cost Comparison Worksheet to compare
   official travel to actual travel costs, but there was no documentation or explanations
   to support the official travel cost.

Also, based on review of travel vouchers and conference agendas, the traveler did not
always reduce their per diem allowance when meals were provided at conferences. In
comparison to vouchers for other travelers that attended the same conferences, the
traveler sometimes received a higher per diem allowance although some meals were
included in the registration fees for the conference. Differences were identified on trips
to Malta and Korea. Travelers who are provided meals at Government expense or when
included in registration fees must adjust the meal allowance, in accordance with the FTR
§ 301-11.18. NARA 601.61, NARA Travel Policy, indicates reimbursement of meal and

                                        Page 9
                     National Archives and Records Administration
                                                               OIG Audit Report No. 11-14


incidental expenses are adjusted when meals are furnished or the meal expenses are
included in registration fees.

Premium class travel is considered permissible to employees only in certain limited
circumstances, for instance, if it is necessary because of a traveler’s disability, coach
class accommodations are not available, or the travel is at least 14 hours long. FTR §
301-10.122 provides that with limited exceptions, travelers must use coach class
accommodations for both domestic and international travel. Premium class travel (first
or business class) may be used only when the traveler’s agency specifically authorizes the
use of such accommodations (authorization) and only under specific circumstances
(justification).

FTR § 301-10.7, requires travelers to travel to their destination by the usually traveled
route unless the agency authorizes or approves a different route as officially necessary.
Further, FTR § 301-10.8, states the traveler’s reimbursement will be limited to the cost of
travel by a direct route or on an uninterrupted basis and the traveler will be responsible
for any additional costs. When combining TDY and personal travel, NARA 601.28,
Travel Policy, requires the screen print of flight costs when submitting a Travel Cost
Comparison worksheet.

Inadequate reporting of foreign travel
During our review we identified employees were not adequately reporting the outcome of
foreign travel. Without this information, NARA does not have the capability to identify
the benefits of participation in conferences, training, and other activities internationally.
There were 22 instances (out of 35 international trips reviewed) where offices did not
report international travel on their quarterly performance reports to the Archivist. When
international travel was included in the reports, it was not detailed as it did not include
outcomes or measurable benefits to the agency.

NARA 601, NARA Travel Policy, indicates offices are required to report all international
travel on their quarterly performance reports to the Archivist. Previously, NARA
required travelers to complete NA Form 7003, International Travel Request, when
traveling internationally. This form required the traveler to state the purpose for the
international trip and justify why NARA needed to be represented at the event. It also
required the traveler to identify how the trip would fulfill NARA’s Strategic Plan
objectives. NARA discontinued the use of this form in 2007. Absent of this information
being included in the quarterly performance reports, the Archivist cannot evaluate the
benefits to the agency. In 2009 OMB reported several federal agencies proposed several
ways to cut their administrative budgets, including travel costs, as a part of cost saving
measures. Requiring travelers to complete a form similar to the NA Form 7003,
International Travel Request, prior to international travel, will allow management to
determine if the trip is beneficial to NARA and provide an opportunity to identify savings
to NARA’s budget.

In addition to not identifying the benefits of activities related to international travel,
NARA has failed to perform a review of the benefits related to the ICA. Based on our
                                         Page 10
                      National Archives and Records Administration
                                                               OIG Audit Report No. 11-14


review, NARA (1) spent $450,988 in membership dues for the ICA since October 2008,
(2) incurred $60,149 in travel expenses for an employee to attend ICA events (other
employees in the agency also attended some of the same conferences), (3) paid the
employee a part-time GS-15 salary, and (4) provided that same part-time employee the
opportunity to take seven vacations during 2009 and 2010 when traveling to ICA events.

Based on interviews and limited documentation provided by NARA’s management, it is
difficult to determine the benefit NARA receives from the expenditures associated with
the ICA. While it is appropriate for NARA to be a part of an international organization,
we question whether such lavish trips for a part-time employee are practical and in the
best interests of the agency. When the OIG inquired with the Deputy Archivist about
using a current full-time employee to represent NARA on the ICA, she indicated NARA
is getting first class work for minimal dollars since the employee is working part-time
and is paid only the difference between his pension and a GS-15 salary. The Archivist of
the United States shares the OIG’s concern about the benefit of the organization to
NARA. Under the direction of the Archivist, the employee assigned to represent NARA
on the ICA is conducting an analysis to determine the benefit, which is expected to be
completed by August 2012.

The issues noted above occurred due to lack of effective oversight activities. While
NABF has established NARA 601, NARA Travel Policy, and issued NARA notices
reminding travelers important information regarding travel, they failed to effectively
oversee travel foreign activities.

Recommendation 1

The Executive for Business Support Services (B) should:

a)	 Enforce NARA 601, NARA Travel Policy, and deny any travel authorizations or
    vouchers that are in violation of it.

b)	 Conduct periodic Budget and Finance (BCB) departmental meetings to discuss
    violations of travel policies.

Recommendation 2

The Executive for Business Support Services should develop and implement:

a)	 A mandatory specialized training course for travelers and authorizing officials
    reiterating their roles and responsibilities. Refresher courses should be provided on a
    periodic basis. Until a training course is developed and implemented, require the
    applicable travelers and authorizing officials to review the FTR and agency policies
    and procedures related to their responsibilities in traveling, reviewing travel vouchers,
    and approving travel expenditures.



                                         Page 11
                      National Archives and Records Administration
                                                              OIG Audit Report No. 11-14


b)	 Formal procedures for conducting quarterly audits of travel vouchers to ensure
    applicable Department and government-wide policies are adhered to. At a minimum,
    procedures should outline (1) objectives, (2) sampling requirements, (3) audit steps,
    (4) communicating with travelers and authorizing officials, and (5) reporting results
    and corrective actions.

c)	 Procedures for reviewing international travel requests to ensure trips meet the
    agency’s mission, fulfill the objectives of NARA’s Strategic Plan, and are
    economically feasible.

d)	 Procedures to follow-up on travel vouchers not submitted within five working days.
    Take appropriate action for people who do not comply within five working days.

Recommendation 3

The Executive for Business Support Services should create a webpage within
NARA@work which includes all travel information including, but not limited to links to
the FTR, NARA 601 - Travel Policy, GovTrip, the travel card application and agreement,
and NABF contacts.

Recommendation 4

The Executive for Business Support Services should direct BCB to review the exceptions
identified in this finding and make a determination as to whether potential funds can be
recovered.

Management Response

Management concurred with each of the recommendations.




                                        Page 12
                     National Archives and Records Administration
                                                                       OIG Audit Report No. 11-14


2. Management of non-Federal sponsored travel needs
   improvement.
Although guidance exists, controls over the management of travel sponsored by non-
Federal sources 3 needs improvement. Specifically, requesting reimbursement from non-
Federal sources was not centralized, there was no verification by NABF that payment
was received from non-Federal sources, and conflict of interest determinations were not
always obtained from NGC. These weaknesses exist because the controls outlined in
NARA 601.53 through 601.58, NARA Travel Policy (in effect until July 2010), and
NARA interim guidance 601-11, Travel Funded by Non-Federal Sources (in effect as of
July 2010), were not followed. As a result, NARA may be reporting reimbursements
incorrectly to the US Office of Government Ethics or failing to receive all agreed-upon
reimbursements from non-Federal source sponsors.

FTR § 304 allows NARA to accept payment of travel expenses from non-Federal sources
for an employee to attend a meeting or similar function 4. We found controls to centrally
bill and track payments from non-Federal sources did not exist. In 2009 and 2010, in
accordance with FTR § 304-6.4, NARA reported non-Federal sponsored travel totaling
$213,318. NARA Interim Guidance 601-11, Travel Funded by Non-Federal Sources,
states when a non-Federal source offers to pay a traveler’s expenses to a meeting or
similar function, NABF will request reimbursement from the non-Federal source after the
employee submits a fully approved travel authorization, the letter offering to pay the
expenses, a fully approved travel voucher, completed NA Form 4012 - Report of
Payments Accepted from non-Federal sources, and after the employee is paid for the
travel expenses.

NABF does not follow the guidance as outlined in NARA 601-11, Travel Funded by
Non-Federal Sources, as they do not act as the central office to request reimbursements
from non-Federal sources. NABF relies on the field offices to request reimbursement
from non-Federal sources, while they handle the Washington, DC area offices. Also,
NABF has not established a process for tracking the reimbursements from non-Federal
sources. When we interviewed NABF staff and requested documentation showing
payments were received for four vouchers (out of 39 vouchers) totaling $7,077 with non-
Federal source payments, they were unable to confirm and provide documentation to
support the payments were received from the non-Federal sources. Without a process in
place, NARA cannot ensure all agreed-upon reimbursements from non-Federal sources
were actually received.


3
 A non-Federal source is defined in FTR 304-2.1 as “any person or entity other than the Government of the
United States. The term includes any individual, private or commercial entity, nonprofit organization or
association, international or multinational organization (irrespective of whether an agency holds
membership in the organization or association), or foreign, State or local government (including the
government of the District of Columbia).”
4
 A meeting or similar function means a conference, seminar, speaking engagement, symposium, training
course, or similar event that takes place away from the employee’s official station.
                                            Page 13
                         National Archives and Records Administration
                                                             OIG Audit Report No. 11-14


According to NARA Interim Guidance 601-11, Travel Funded by Non-Federal Sources,
as soon as an employee is aware of travel which may be reimbursed or provided "in-kind"
by a non-Federal source, the employee must prepare an official travel authorization in the
GovTrip system. Once the authorization is fully approved, the employee must submit a
copy of the approved authorization along with the written invitation from the non-Federal
source that details the purpose of the trip and the expenses to be paid to NGC for a
conflict of interest determination. Without this information, NGC is unable to perform its
responsibilities.

We found NARA travelers were not always obtaining conflict-of-interest determinations
from NGC when on official travel to “meetings or similar functions” that was supposed
to be paid for by non-Federal sources. One of the 35 international travel vouchers
reviewed identified expenses paid by a non-Federal source, but there was no
documentation to support a conflict-of-interest determination by NGC. For another
international trip, the traveler did not request a conflict of interest determination from
NGC within an appropriate timeframe. NGC is unable to perform its responsibilities if
they are not properly notified. The trips were to Japan and Abu Dhabi. These in-kind
payments were for flights, accommodations, local transportation, and meals. The
payments were paid directly by the non-Federal source to the vendor. We could not
identify the amounts of all of the in-kind payments, but the fare for the flight to Japan
totaled $11,437. This in-kind payment was not reported on the semi-annual reports to the
US Office of Government Ethics. The other in-kind payment was later deemed a gift by
NGC because the traveler did not notify NGC until eleven days after the trip to Abu
Dhabi. We note approving officials and NABF approved the vouchers, without following
the guidelines outlined for travel funded by non-Federal sources.

Ineffective oversight of payments from non-Federal sources can result in inappropriate
use of agency resources and violations of agency policies.

Recommendation 5

The Executive for Business Support Services should:

a)	 Require BCB to monitor travel documentation more carefully to ensure the
    established controls for non-Federal source payments are operating effectively.

b)	 Establish a mechanism to track travel arrangements approved for funding by non-
    Federal sources. This mechanism can also be used to track payments.

c)	 Develop a procedure to follow-up with all non-Federal sources who have not
    reimbursed the agency in a timely manner.

Management Response

Management concurred with the recommendation.

                                        Page 14
                     National Archives and Records Administration
                                                              OIG Audit Report No. 11-14


   these stringent restrictions were applied for this cardholder. Also, NABF failed to
   effectively monitor the restricted card activity in light of the cardholder’s credit
   history.

   Table 1
       Date                   Reason                   Amount
   9/28/2010    ATM Withdrawal                          $101.75
   9/28/2010    ATM Withdrawal                            101.75
   11/2/2010    Rental Car                                 28.00
   11/12/2010   ATM Withdrawal                            101.50
   11/12/2010   ATM Withdrawal                            101.75
   11/13/2010   ATM Withdrawal                            101.50
   11/13/2010   ATM Withdrawal                            101.75
   11/23/2010   ATM Withdrawal                             41.75
   11/23/2010   Purchase – Beer, Wine, Liquor Store       116.94
   11/23/2010   Purchase – Convenience Store              137.29
   11/24/2010   Purchase – Convenience Store               13.17
   11/25/2010   Purchase – Convenience Store               18.17
   12/29/2010   ATM Withdrawal                            121.75
   12/29/2010   ATM Withdrawal                            102.60
   1/4/2011     ATM Withdrawal                            151.75
   1/5/2011     ATM Withdrawal                            101.75
   1/5/2011     ATM Withdrawal                             81.75
                                               Total   $1,524.92

•	 A cardholder used their government issued travel card between July 2009 and January
   2011 to make 25 ATM withdrawals, totaling $5,247 (see Table 2). Majority of the
   withdrawals occurred on the weekends. The employee‘s credit card account was re­
   opened in 2009. Prior to re-opening the credit card, Citibank indicated the cardholder
   was ineligible for reinstatement due to excessive delinquency (account was past due
   75% of the account history – 22 out of 29 statements). Since February 2010, NABF
   has contacted the employee six times regarding late payments with the new card, but
   not about the ATM activity occurring on the card. The ATM withdrawals remained
   undetected by NABF.




                                        Page 16
                     National Archives and Records Administration
                                                           OIG Audit Report No. 11-14


   Table 2
       Date                 Reason                   Amount
   7/17/2009    ATM Withdrawal                           202.50
   8/15/2009    ATM Withdrawal                           203.00
   8/22/2009    ATM Withdrawal                            42.75
   9/5/2009     ATM Withdrawal                           201.75
   9/21/2009    ATM Withdrawal                           203.00
   9/26/2009    ATM Withdrawal                           203.00
   10/4/2009    ATM Withdrawal                           202.75
   10/4/2009    ATM Withdrawal                           142.75
   11/7/2009    ATM Withdrawal                           102.00
   11/22/2009   ATM Withdrawal                            22.75
   12/12/2009   ATM Withdrawal                           402.75
   12/12/2009   ATM Withdrawal                            42.75
   2/14/2010    ATM Withdrawal                           302.75
   3/20/2010    ATM Withdrawal                           422.75
   4/16/2010    ATM Withdrawal                           182.00
   5/1/2010     ATM Withdrawal                           282.75
   7/11/2010    ATM Withdrawal                           442.75
   8/19/2010    ATM Withdrawal                           403.00
   8/19/2010    ATM Withdrawal                            43.00
   10/30/2010   ATM Withdrawal                           403.00
   10/30/2010   ATM Withdrawal                            23.00
   11/20/2010   ATM Withdrawal                            22.50
   11/26/2010   ATM Withdrawal                           303.00
   1/7/2011     ATM Withdrawal                           402.50
   1/9/2011     ATM Withdrawal                            42.50
                                           Total      $5,247.25

•	 ATM withdrawals, totaling $663 (see Table 3) for one cardholder. Three of the
   charges were a few days before the Christmas holiday in December 2009 and 2010.
   These activities remained undetected by NABF.

   Table 3
       Date                 Reason                  Amount
   12/22/2009   ATM Withdrawal                       $160.00
   12/17/2010   ATM Withdrawal                        303.00
   12/23/2010   ATM Withdrawal                        200.00
                                           Total     $663.00

Failure to implement proper controls increases the risk of inappropriate charges and
unauthorized ATM withdrawals. Also, the agency exposes itself to unnecessary risk for
inappropriate charges by issuing travel cards to employees that are not credit worthy.




                                       Page 17
                    National Archives and Records Administration
                                                               OIG Audit Report No. 11-14


Recommendation 6

The Executive for Business Support Services should:

a)	 Review and update policy and procedures for issuing travel cards to employees.
    Include additional restrictions as outlined in OMB Circular A-123 on cardholders
    with credit scores less than 660.

b)	 Enhance procedures to perform timely periodic reviews of the appropriateness of
    individually and centrally billed travel cards to help ensure the effectiveness of travel
    card expenditure controls. Specifically, as outlined in OMB Circular A-123, review
    ATM cash withdrawals for reasonableness and association with official travel.

Management Response

Management concurred with the recommendation.




                                         Page 18
                      National Archives and Records Administration
                                                     OIG Audit Report No. 11-14


Appendix A – Acronyms and Abbreviations

DVT	            Deep Vein Thrombosis
FAA	            Federal Aviation Administration
FTR	            Federal Travel Regulations
ICA	            International Council of Archives
NABF	           Financial Services Division
NARA	           National Archives and Records Administration
NGC	            Office of General Counsel
OIG	            Office of Inspector General
OMB	            Office of Management and Budget
TDY	            Temporary Duty Station
The Circular	   Circular A-123, Appendix B, Improving the Management of
                Government Charge Card Programs




                                   Page 19
                National Archives and Records Administration
                                                 OIG Audit Report No. 11-14



Appendix B – Management’s Response to the Report




                               Page 20

            National Archives and Records Administration
                                                        OIG Audit Report No. 11-14


Appendix C – Report Distribution List

Archivist of the United States (N)

Deputy Archivist of the United States (ND)

Chief Operating Officer (C) 

General Counsel (NGC)

Executive for Business Support Services (B)

Chief Financial Officer (BC)

Chief of Staff (NCS)

Management Control Liaison, Performance and Accountability (CP)





                                      Page 21
                   National Archives and Records Administration
